NO.________
IN THE
SUPREME COURT OF THE UNITED STATES
___________________________
Kinzey Shaw, also known as Kinzey Basic, Petitioner
v.
United States of America, Respondent
__________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________________
APPENDIX
__________________________

APPENDIX A

Judgment of the United States District Court ..................................... APP 1

APPENDIX B

Opinion of the United States Court of Appeals for the Eighth
Circuit ..................................................................................... APP 9

APPENDIX C

Judgment of the United States Court of Appeals for the Eighth
Circuit ................................................................................... APP 19

APPENDIX D

Order Denying Petition for Rehearing and for Rehearing En
Banc ...................................................................................... APP 20

APPENDIX E

Mandate of the United States Court of Appeals for the Eighth
Circuit ................................................................................... APP 21

APPENDIX F

U.S.S.G. § 2D1.1 .............................................................................. APP 22

Case 1:18-cr-00125-DLH Document 87 Filed 05/15/19 Page 1 of 8

APPENDIX A

APP 001

Case 1:18-cr-00125-DLH Document 87 Filed 05/15/19 Page 2 of 8

APP 002

Case 1:18-cr-00125-DLH Document 87 Filed 05/15/19 Page 3 of 8

APP 003

Case 1:18-cr-00125-DLH Document 87 Filed 05/15/19 Page 4 of 8

APP 004

Case 1:18-cr-00125-DLH Document 87 Filed 05/15/19 Page 5 of 8

APP 005

Case 1:18-cr-00125-DLH Document 87 Filed 05/15/19 Page 6 of 8

APP 006

Case 1:18-cr-00125-DLH Document 87 Filed 05/15/19 Page 7 of 8

APP 007

Case 1:18-cr-00125-DLH Document 87 Filed 05/15/19 Page 8 of 8

APP 008

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-2109
___________________________
United States of America
Plaintiff - Appellee
v.
Kinzey Shaw, also known as Kinzey Basic
Defendant - Appellant
___________________________
No. 19-2165
___________________________
United States of America
Plaintiff - Appellee
v.
Elvis Basic
Defendant - Appellant
____________
Appeal from United States District Court
for the District of North Dakota - Bismarck
____________
Submitted: June 16, 2020
Filed: July 20, 2020
____________

APPENDIX B
APP 009

Appellate Case: 19-2109

Page: 1

Date Filed: 07/20/2020 Entry ID: 4935227

Before GRUENDER, WOLLMAN, and KOBES, Circuit Judges.
____________
GRUENDER, Circuit Judge.
Kinzey Shaw and Elvis Basic were found jointly guilty of one count of
conspiracy to distribute and possess with intent to distribute a controlled substance
and one count of distribution of a controlled substance, in violation of 21 U.S.C.
§§ 846, 841(a)(1), 841(b)(1)(C), and 18 U.S.C. § 2. Shaw and Basic were also found
guilty of one count each of distribution of a controlled substance, in violation of 21
U.S.C. §§ 841(a)(1), 841(b)(1)(C), and 18 U.S.C. § 2. Basic appeals his conspiracy
conviction and the district court’s 1 drug-quantity determination. Shaw appeals the
drug-quantity determination and an obstruction-of-justice enhancement applied to
her sentence. We affirm.
The evidence presented at trial included testimony that Shaw began selling a
fentanyl solution to Tawna Iron Shield in June 2018, while Iron Shield was living in
a halfway house in North Dakota. On the first occasion, Shaw parked outside a
Walmart and asked Iron Shield if she wanted to try some nasal spray. Iron Shield
said yes and sprayed the solution two or three times into her nose, which made her
feel “energetic.” Iron Shield later bought a bottle of nasal spray from Shaw, agreeing
to a price of one hundred dollars. On a separate occasion, Iron Shield obtained
another bottle of nasal spray from Shaw at Shaw’s mother’s apartment for forty
dollars. She returned to Shaw’s mother’s apartment two or three times to refill the
nasal spray bottle. Iron Shield told another resident in the halfway house, Jennifer
Red Shirt, about her nasal spray bottle and offered to let Red Shirt try it. Red Shirt
said that after she did “two squirts” of the solution she felt “high” and “sick.”

The Honorable Daniel L. Hovland, Chief Judge, United States District Court
for the District of North Dakota.
1

-2Appellate Case: 19-2109

Page: 2

APP 010

Date Filed: 07/20/2020 Entry ID: 4935227

Iron Shield and Red Shirt both failed routine urinalysis tests for drugs later
that month and were arrested and jailed. A staff member at the halfway house
confiscated Iron Shield’s spray bottle and turned it over to law enforcement. An
analysis revealed that the spray bottle held 11.69 grams of a liquid solution that
contained cyclopropyl fentanyl. 2 Iron Shield was interviewed by a police detective
and told him about Shaw’s role in supplying the nasal spray.
After learning of Shaw’s role in the drug transactions, North Dakota Bureau
of Criminal Investigation Special Agent Alex Droske began surveillance of Basic’s
apartment building because he knew from “previous experience” that Shaw and
Basic were associated. During this surveillance, Droske observed a man park next
to Basic’s vehicle in the apartment building parking lot, look inside Basic’s vehicle,
then enter the building. The man returned to the lot ten minutes later carrying a
round, cylindrical object. Droske followed the man’s car as he drove away and saw
him shaking a nasal spray bottle in his hand as he drove. Droske initiated a traffic
stop after observing the man’s erratic driving and learned the man’s name was
Joseph Otremba. Otremba admitted that he had a nasal spray bottle in his car. This
bottle was seized and later revealed to contain a solution that included cyclopropyl
fentanyl.
Otremba later testified that he received nasal spray from Basic and Shaw on
multiple occasions. When Otremba first used the substance, Basic sprayed it into
Otremba’s nose. Otremba testified that, at Basic’s direction, he paid for a bottle of
nasal spray by sending forty dollars to Shaw’s PayPal account. He also testified that,
during a trip to Fargo with Basic and Shaw, he used the substance multiple times.
Shaw would remove the bottle from her purse and use the spray, then pass it to Basic
to use, and then to Otremba.
The parties do not dispute that cyclopropyl fentanyl is a fentanyl analogue.
“A controlled substance analogue is a substance that is ‘substantially similar’ to a
controlled substance in schedule I or II with respect to either its chemical structure
or its ‘stimulant, depressant, or hallucinogenic effect.’” United States v. Wolfe, 781
F. App’x 566, 568 (8th Cir. 2019) (per curiam) (citing 21 U.S.C. § 802(32)(A)).
2

-3Appellate Case: 19-2109

Page: 3

APP 011

Date Filed: 07/20/2020 Entry ID: 4935227

After Droske stopped Otremba, Droske notified other law enforcement agents
of the seizure of the nasal spray bottle. Ultimately, Shaw and Basic were arrested,
and Shaw was placed into the same holding cell as Iron Shield and Red Shirt. While
in that holding cell, Shaw told both Iron Shield and Red Shirt “not to tell on her.”
At Shaw’s sentencing hearing, the district court calculated a total offense level
of 30 and a criminal history category of III, resulting in an advisory sentencing
guidelines range of 121 to 151 months. Shaw’s offense level included a two-level
enhancement for Shaw’s attempt to obstruct justice by telling Iron Shield and Red
Shirt not to tell on her. The district court sentenced Shaw to 132 months’
imprisonment, followed by three years of supervised release.
At Basic’s sentencing hearing, the district court calculated a total offense level
of 28 and a criminal history category of III, resulting in an advisory sentencing
guidelines range of 97 to 121 months. It sentenced Basic to 120 months’
imprisonment. In calculating the sentences for both Shaw and Basic, the district
court relied on the drug-quantity determination of seventy-seven grams contained in
their presentence investigation reports. 3
Shaw and Basic now appeal. Basic argues that there was insufficient evidence
to establish that a conspiracy existed between him and Shaw and argues that the
district court clearly erred in calculating a drug quantity of seventy-seven grams.
Shaw also contests the drug-quantity determination and argues additionally that the

Each presentence investigation report determined that there were seventyseven grams of cyclopropyl fentanyl involved in the offenses, or 770 kilograms of
converted drug weight. The sentencing guidelines provide that an amount ranging
between seventy and one hundred grams of a fentanyl analogue, such as a mixture
containing cyclopropyl fentanyl, equates to an amount between 700 and 1,000
kilograms of converted drug weight. U.S.S.G. § 2D1.1(c); § 2D1.1 cmt. n.8(D).
And this drug quantity results in a base offense level of 28. Id.
3

-4Appellate Case: 19-2109

Page: 4

APP 012

Date Filed: 07/20/2020 Entry ID: 4935227

two-level sentencing enhancement for obstruction was improper. We address each
argument in turn.
We begin with Basic’s sufficiency-of-the-evidence argument concerning his
conspiracy conviction. “We review de novo the sufficiency of the evidence,
examining the evidence in the light most favorable to the jury verdict and giving the
verdict the benefit of all reasonable inferences.” United States v. Blaylock, 421 F.3d
758, 772 (8th Cir. 2005). We will not disturb the jury’s verdict unless “no reasonable
construction of the evidence” will support it. United States v. Hickman, 764 F.3d
918, 924 (8th Cir. 2014).
To conclude that Basic was engaged in a conspiracy with Shaw, a jury must
find that (1) Shaw and Basic reached an agreement to distribute or possess with
intent to distribute a controlled substance, (2) Basic voluntarily and intentionally
joined the agreement, and (3) at the time he joined the agreement, Basic knew its
essential purpose. See United States v. Walker, 688 F.3d 416, 421 (8th Cir. 2012).
“The government may prove an agreement wholly by circumstantial evidence or by
inference from the actions of the parties.” United States v. Jimenez-Villasenor, 270
F.3d 554, 558 (8th Cir. 2001). Granted, “proof of a buyer-seller relationship, without
more, is inadequate to tie the buyer to a larger conspiracy . . . .” United States v.
Conway, 754 F.3d 580, 591 (8th Cir. 2014). But a reasonable jury could find that
Basic had more than a buyer-seller relationship with Shaw “if the evidence supports
a finding that they shared a conspiratorial purpose to advance other transfers.” See
id. at 592.
The circumstantial evidence here is sufficient to establish that Basic
voluntarily and intentionally reached an agreement with Shaw to distribute a
controlled substance and, at the time of joining, knew the essential purpose of the
agreement. For example, Otremba testified that he overheard multiple conversations
between Shaw and Basic about their efforts to sell the fentanyl nasal spray. In
addition, Otremba testified that Basic directed him to collect water bottles containing
unidentified liquid from Shaw’s mother’s apartment and that Basic told him to send
-5Appellate Case: 19-2109

Page: 5

APP 013

Date Filed: 07/20/2020 Entry ID: 4935227

money to Shaw’s PayPal account in exchange for the fentanyl solution.
Furthermore, Shaw and Basic jointly distributed fentanyl spray to Otremba multiple
times. Once, while all three were shopping together, Otremba asked Basic for some
nasal spray, Basic then asked Shaw for the spray, and Shaw retrieved it from her
purse and handed it to Basic to give to Otremba. In view of this testimony, sufficient
evidence supported the finding that Shaw and Basic were engaged in a conspiracy
to distribute cyclopropyl fentanyl. See United States v. Cooke, 853 F.3d 464, 475
(8th Cir. 2017) (determining that circumstantial evidence established a conspiracy
based on, inter alia, communications between two people about selling
methamphetamine and payments between those people for controlled substances).
Next, Basic and Shaw both argue that the district court clearly erred in
calculating a drug quantity of seventy-seven grams of fentanyl analogue. “The
district court’s drug quantity and identity determinations are factual findings, which
we review for clear error, applying the preponderance-of-the-evidence standard.”
Walker, 688 F.3d at 420 (internal quotation marks omitted). We “will overturn a
finding of drug quantity only if the entire record definitively and firmly convinces
us that a mistake has been made.” United States v. Quintana, 340 F.3d 700, 702 (8th
Cir. 2003) (internal quotation marks omitted).
Before attributing to one defendant a quantity of drugs sold by a coconspirator, a district court must “find by a preponderance of the evidence” that the
transaction was (1) “in furtherance of the conspiracy” and (2) either known to the
defendant “or reasonably foreseeable to him.” United States v. Alexander, 408 F.3d
1003, 1009-10 (8th Cir. 2005); see U.S.S.G. § 1B1.3(a)(1)(B). In calculating this
quantity, “the factfinder may consider drug amounts from transactions” that the
defendant was not directly involved in, so long as those transactions were “part of
the same course of conduct or scheme.” Id. at 1010.
Basic argues that the quantities sold by Shaw to Iron Shield cannot be
attributable to him because they were not reasonably foreseeable by him, were not
within the scope of the conspiracy, and were not in furtherance of the conspiracy.
-6Appellate Case: 19-2109

Page: 6

APP 014

Date Filed: 07/20/2020 Entry ID: 4935227

But Otremba testified that he heard multiple conversations between Basic and Shaw
about selling the fentanyl nasal spray. Specifically, he heard Shaw tell Basic that
she needed to “make money off of” selling the drug. Therefore, it would have been
reasonably foreseeable to Basic that Shaw would attempt to increase sales by
distributing the drug to others, even if Basic did not personally know Iron Shield or
Red Shirt. See United States v. Flores, 73 F.3d 826, 834 (8th Cir. 1996) (finding
that a codefendant was responsible for other drug quantities distributed by coconspirators when there was no evidence to suggest that his “initial agreement to
join, and subsequent involvement in, the joint criminal conduct was clearly
defined . . . as limited to the specific criminal act(s)” in which the codefendant
personally participated). Thus, the district court did not clearly err in holding that a
preponderance of the evidence supported finding that Shaw’s fentanyl nasal spray
transactions with Iron Shield were attributable to Basic.
In addition, turning to the drug quantity calculated, the trial evidence was
sufficient for the district court to “approximate [a] quantity” that amounted to at least
seventy-seven grams of fentanyl analogue. See Walker, 688 F.3d at 421. To
determine properly the applicable drug quantity in a conspiracy, a sentencing court
“shall approximate the quantity of the controlled substance[s]” for sentencing
purposes if the amount of drugs seized does not reflect the scale of the offense. Id.
In so doing, “[t]he court may make a specific numeric determination of quantity
based on imprecise evidence” and without regard to the admissibility of the
evidence. United States v. Roach, 164 F.3d 403, 413-14 (8th Cir. 1998). In making
these determinations, the sentencing court has wide discretion as to the kind of
information it may consider or its source, including trial evidence. United States v.
Lawrence, 854 F.3d 462, 467 (8th Cir. 2017).
The nasal spray bottle confiscated from Iron Shield at the halfway house was
found to contain 11.69 grams of a solution containing cyclopropyl fentanyl. Because
testimony established that several of Shaw’s and Basic’s other transactions involved
nasal spray bottles, it was reasonable for the district court to “approximate the
quantity” of those other nasal spray bottles as 11.69 grams. See Walker, 688 F.3d at
-7Appellate Case: 19-2109

Page: 7

APP 015

Date Filed: 07/20/2020 Entry ID: 4935227

421. Iron Shield testified that she received multiple nasal spray bottles from Shaw
and refilled them at Shaw’s apartment “two or three times,” amounting to roughly
four nasal-spray-bottle-sized amounts. Otremba also testified that the same day that
Droske stopped him, Basic had filled a spray bottle belonging to Otremba with a
fentanyl solution. On another occasion, Otremba paid forty dollars for a separate
quantity of fentanyl solution that Basic poured from a bottle belonging to Shaw into
Otremba’s spray bottle. In addition to these incidents involving nasal spray bottlesized quantities, Otremba testified that he retrieved a water bottle containing
approximately two inches of liquid from Shaw’s apartment. Otremba then brought
the bottle to Basic at his apartment, later testifying that Basic usually obtained the
fentanyl from Shaw and that he and Basic would refer to the nasal spray as “water
bottle” or “Dasani water” when they were talking in code. Furthermore, Iron Shield
and Otremba both testified to receiving several sprays of the fentanyl solution from
Shaw and Basic on multiple occasions. Therefore, there were likely at least six
nasal-spray-bottle quantities, two inches of solution in a water bottle, and various
individual sprays involved in Shaw and Basic’s transactions. In light of this
testimony, seventy-seven grams is a reasonable approximation of the drug quantity.
See United States v. Robertson, 883 F.3d 1080, 1083 (8th Cir. 2018) (noting that,
where not all the drugs have been seized, the district court’s measurements need not
be precise if the record reflects a basis for the court’s approximation). Thus, the
district court did not clearly err in calculating the drug quantity.
Lastly, Shaw argues that the district court’s decision to apply a two-level
sentencing enhancement for obstruction of justice was not supported by the trial
evidence. “The district court must find the predicate facts supporting an
enhancement for obstruction of justice by a preponderance of the evidence, and we
review those findings for clear error.” United States v. Yarrington, 634 F.3d 440,
452 (8th Cir. 2011). “We give great deference to a district court’s decision to impose
an obstruction of justice enhancement, reversing only when the district court’s
findings are insufficient.” Id.

-8Appellate Case: 19-2109

Page: 8

APP 016

Date Filed: 07/20/2020 Entry ID: 4935227

A district court may apply an obstruction-of-justice enhancement to a
defendant’s base offense level if “the defendant willfully obstructed . . . or attempted
to obstruct . . . the administration of justice” with respect to the investigation or
prosecution “of the instant offense of conviction” and the obstruction related to the
“defendant’s offense of conviction and any relevant conduct.” U.S.S.G. § 3C1.1.
The commentary to § 3C1.1 defines obstruction to include “unlawfully influencing”
a witness. Id. at cmt. n.4(A). Therefore, attempts to prevent others from
communicating evidence of wrongdoing to law enforcement officers can constitute
obstruction of justice. See United States v. Gaye, 902 F.3d 780, 788 (8th Cir. 2018)
(noting that attempts to discourage a witness from testifying implicate the federal
witness tampering statute, 18 U.S.C. § 1512(b)(1), which forbids persuading another
person with an intent to delay or prevent testimony, and therefore can amount to
obstruction for purposes of the enhancement).
The district court did not clearly err in finding by a preponderance of the
evidence that Shaw attempted to obstruct justice. Iron Shield and Red Shirt both
testified that Shaw told them “not to tell on her” while they were in a holding cell
together after drugs had been discovered at the halfway house. In a similar case, we
found that a defendant obstructed justice when he told a witness that her statements
relating to a domestic assault charge “need[ed] to go away.” United States v.
Sanders, 956 F.3d 534, 540-41 (8th Cir. 2020) (noting that the defendant’s argument
that the comment was “too ambiguous” to warrant an obstruction enhancement was
insufficient to overcome deference to the district court). Shaw’s comment to Iron
Shield and Red Shirt is distinguishable from cases where the enhancement was not
applied because a defendant’s statements were “somewhat ambiguous,” such as
when a defendant asked a witness to “stay strong” and “be quiet.” See United States
v. Emmert, 9 F.3d 699, 704-05 (8th Cir. 1993). Shaw’s statement is closer to that in
Sanders because it is a direct attempt to stifle incriminating testimony. See 956 F.3d
at 540-41. Thus, the district court did not clearly err in applying the obstruction-ofjustice enhancement to Shaw’s offense level.

-9Appellate Case: 19-2109

Page: 9

APP 017

Date Filed: 07/20/2020 Entry ID: 4935227

For the foregoing reasons, we affirm. 4
______________________________

On March 26, 2020, Basic filed a pro se letter addressed to this court raising
various issues. “It is Eighth Circuit policy not to address issues raised by a defendant
in pro se filings with this Court when he is represented by counsel.” United States
v. Carr, 895 F.3d 1083, 1090 (8th Cir. 2018). We therefore decline to address
Basic’s pro se arguments.
4

-10Appellate Case: 19-2109

Page: 10

APP 018

Date Filed: 07/20/2020 Entry ID: 4935227

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-2109
___________________
United States of America
Plaintiff - Appellee
v.
Kinzey Shaw, also known as Kinzey Basic
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the District of North Dakota - Bismarck
(1:18-cr-00125-DLH-2)
______________________________________________________________________________
CORRECTED JUDGMENT
Before GRUENDER, WOLLMAN and KOBES, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
July 21, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

APPENDIX C
Appellate Case: 19-2109

Page: 1

APP 019

Date Filed: 07/21/2020 Entry ID: 4936417

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2109
United States of America
Appellee
v.
Kinzey Shaw, also known as Kinzey Basic
Appellant
No: 19-2165
United States of America
Appellee
v.
Elvis Basic
Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the District of North Dakota - Bismarck
(1:18-cr-00125-DLH-2)
______________________________________________________________________________
ORDER
The petitions for rehearing en banc are denied. The petitions for rehearing by the panel
are also denied.
Judge Erickson did not participate in the consideration or decision of this matter.
August 25, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

APPENDIX D
Appellate Case: 19-2109

Page: 1

APP 020

Date Filed: 08/25/2020 Entry ID: 4948799

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2109
United States of America
Appellee
v.
Kinzey Shaw, also known as Kinzey Basic
Appellant
No: 19-2165
United States of America
Appellee
v.
Elvis Basic
Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the District of North Dakota - Bismarck
(1:18-cr-00125-DLH-2)
______________________________________________________________________________
MANDATE
In accordance with the opinion and judgment of 07/20/2020, and pursuant to the
provisions of Federal Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in
the above-styled matter.
September 01, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

APPENDIX E
Appellate Case: 19-2109

Page: 1

APP 021

Date Filed: 09/01/2020 Entry ID: 4951304

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

KeyCite Yellow Flag - Negative Treatment
Unconstitutional or Preempted Limited on Constitutional Grounds by U.S. v. Booker, U.S., Jan. 12, 2005

United States Code Annotated
Federal Sentencing Guidelines (Refs & Annos)
Chapter Two. Offense Conduct (Refs & Annos)
Part D. Offenses Involving Drugs and Narco-Terrorism (Refs & Annos)
1. Unlawful Manufacturing, Importing, Exporting, Trafficking, or Possession; Continuing Criminal
Enterprise
USSG, § 2D1.1, 18 U.S.C.A.
§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking (Including
Possession with Intent to Commit These Offenses); Attempt or Conspiracy
Currentness
(a) Base Offense Level (Apply the greatest):
(1) 43, if the defendant is convicted under 21 U.S.C. § 841(b)(1)(A), (b)(1)(B), or (b)(1)(C), or 21 U.S.C. § 960(b)(1), (b)(2),
or (b)(3), and the offense of conviction establishes that death or serious bodily injury resulted from the use of the substance
and that the defendant committed the offense after one or more prior convictions for a similar offense; or
(2) 38, if the defendant is convicted under 21 U.S.C. § 841(b)(1)(A), (b)(1)(B), or (b)(1)(C), or 21 U.S.C. § 960(b)(1), (b)(2),
or (b)(3), and the offense of conviction establishes that death or serious bodily injury resulted from the use of the substance; or
(3) 30, if the defendant is convicted under 21 U.S.C. § 841(b)(1)(E) or 21 U.S.C. § 960(b)(5), and the offense of conviction
establishes that death or serious bodily injury resulted from the use of the substance and that the defendant committed the
offense after one or more prior convictions for a similar offense; or
(4) 26, if the defendant is convicted under 21 U.S.C. § 841(b)(1)(E) or 21 U.S.C. § 960(b)(5), and the offense of conviction
establishes that death or serious bodily injury resulted from the use of the substance; or
(5) The offense level specified in the Drug Quantity Table set forth in subsection (c), except that if (A) the defendant receives
an adjustment under § 3B1.2 (Mitigating Role); and (B) the base offense level under subsection (c) is (i) level 32, decrease
by 2 levels; (ii) level 34 or level 36, decrease by 3 levels; or (iii) level 38, decrease by 4 levels. If the resulting offense level
is greater than level 32 and the defendant receives the 4-level (“minimal participant”) reduction in § 3B1.2(a), decrease to
level 32.
(b) Specific Offense Characteristics
(1) If a dangerous weapon (including a firearm) was possessed, increase by 2 levels.

APPENDIX F
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 022 1

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

(2) If the defendant used violence, made a credible threat to use violence, or directed the use of violence, increase by 2 levels.
(3) If the defendant unlawfully imported or exported a controlled substance under circumstances in which (A) an aircraft other
than a regularly scheduled commercial air carrier was used to import or export the controlled substance, (B) a submersible
vessel or semi-submersible vessel as described in 18 U.S.C. § 2285 was used, or (C) the defendant acted as a pilot, copilot,
captain, navigator, flight officer, or any other operation officer aboard any craft or vessel carrying a controlled substance,
increase by 2 levels. If the resulting offense level is less than level 26, increase to level 26.
(4) If the object of the offense was the distribution of a controlled substance in a prison, correctional facility, or detention
facility, increase by 2 levels.
(5) If (A) the offense involved the importation of amphetamine or methamphetamine or the manufacture of amphetamine
or methamphetamine from listed chemicals that the defendant knew were imported unlawfully, and (B) the defendant is not
subject to an adjustment under § 3B1.2 (Mitigating Role), increase by 2 levels.
(6) If the defendant is convicted under 21 U.S.C. § 865, increase by 2 levels.
(7) If the defendant, or a person for whose conduct the defendant is accountable under § 1B1.3 (Relevant Conduct), distributed
a controlled substance through mass-marketing by means of an interactive computer service, increase by 2 levels.
(8) If the offense involved the distribution of an anabolic steroid and a masking agent, increase by 2 levels.
(9) If the defendant distributed an anabolic steroid to an athlete, increase by 2 levels.
(10) If the defendant was convicted under 21 U.S.C. § 841(g)(1)(A), increase by 2 levels.
(11) If the defendant bribed, or attempted to bribe, a law enforcement officer to facilitate the commission of the offense,
increase by 2 levels.
(12) If the defendant maintained a premises for the purpose of manufacturing or distributing a controlled substance, increase
by 2 levels.
(13) If the defendant knowingly misrepresented or knowingly marketed as another substance a mixture or substance
containing fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide) or a fentanyl analogue, increase by 4 levels.
(14) (Apply the greatest):

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 023 2

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

(A) If the offense involved (i) an unlawful discharge, emission, or release into the environment of a hazardous or toxic
substance; or (ii) the unlawful transportation, treatment, storage, or disposal of a hazardous waste, increase by 2 levels.
(B) If the defendant was convicted under 21 U.S.C. § 860a of distributing, or possessing with intent to distribute,
methamphetamine on premises where a minor is present or resides, increase by 2 levels. If the resulting offense level is
less than level 14, increase to level 14.
(C) If-(i) the defendant was convicted under 21 U.S.C. § 860a of manufacturing, or possessing with intent to manufacture,
methamphetamine on premises where a minor is present or resides; or
(ii) the offense involved the manufacture of amphetamine or methamphetamine and the offense created a substantial
risk of harm to (I) human life other than a life described in subdivision (D); or (II) the environment, increase by 3 levels.
If the resulting offense level is less than level 27, increase to level 27.
(D) If the offense (i) involved the manufacture of amphetamine or methamphetamine; and (ii) created a substantial risk
of harm to the life of a minor or an incompetent, increase by 6 levels. If the resulting offense level is less than level 30,
increase to level 30.
(15) If (A) the offense involved the cultivation of marihuana on state or federal land or while trespassing on tribal or private
land; and (B) the defendant receives an adjustment under § 3B1.1 (Aggravating Role), increase by 2 levels.
(16) If the defendant receives an adjustment under § 3B1.1 (Aggravating Role) and the offense involved 1 or more of the
following factors:
(A)(i) The defendant used fear, impulse, friendship, affection, or some combination thereof to involve another individual in
the illegal purchase, sale, transport, or storage of controlled substances, (ii) the individual received little or no compensation
from the illegal purchase, sale, transport, or storage of controlled substances, and (iii) the individual had minimal knowledge
of the scope and structure of the enterprise;
(B) The defendant, knowing that an individual was (i) less than 18 years of age, (ii) 65 or more years of age, (iii) pregnant, or
(iv) unusually vulnerable due to physical or mental condition or otherwise particularly susceptible to the criminal conduct,
distributed a controlled substance to that individual or involved that individual in the offense;
(C) The defendant was directly involved in the importation of a controlled substance;
(D) The defendant engaged in witness intimidation, tampered with or destroyed evidence, or otherwise obstructed justice
in connection with the investigation or prosecution of the offense;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 024 3

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

(E) The defendant committed the offense as part of a pattern of criminal conduct engaged in as a livelihood,
increase by 2 levels.
(17) If the defendant receives the 4-level (“minimal participant”) reduction in § 3B1.2(a) and the offense involved all of the
following factors:
(A) The defendant was motivated by an intimate or familial relationship or by threats or fear to commit the offense and
was otherwise unlikely to commit such an offense;
(B) The defendant received no monetary compensation from the illegal purchase, sale, transport, or storage of controlled
substances; and
(C) The defendant had minimal knowledge of the scope and structure of the enterprise,
decrease by 2 levels.
(18) If the defendant meets the criteria set forth in subdivisions (1)-(5) of subsection (a) of § 5C1.2 (Limitation on
Applicability of Statutory Minimum Sentences in Certain Cases), decrease by 2 levels.
(c) DRUG QUANTITY TABLE
Controlled Substances and Quantity*
(1)

• 90 KG or more of Heroin;

Base Offense
Level
Level 38

• 450 KG or more of Cocaine;
• 25.2 KG or more of Cocaine Base;
• 90 KG or more of PCP, or 9 KG or more of PCP (actual);
• 45 KG or more of Methamphetamine, or 4.5 KG or more of Methamphetamine (actual), or
4.5 KG or more of “Ice”;
• 45 KG or more of Amphetamine, or 4.5 KG or more of Amphetamine (actual);
• 900 G or more of LSD;
• 36 KG or more of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] Propanamide);
• 9 KG or more of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] Propanamide)
Analogue;
• 90,000 KG or more of Marihuana;
• 18,000 KG or more of Hashish;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 025 4

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• 1,800 KG or more of Hashish Oil;
• 90,000,000 units or more of Ketamine;
• 90,000,000 units or more of Schedule I or II Depressants;
• 5,625,000 units or more of Flunitrazepam;
• 90,000 KG or more of Converted Drug Weight.
(2)

• At least 30 KG but less than 90 KG of Heroin;

Level 36

• At least 150 KG but less than 450 KG of Cocaine;
• At least 8.4 KG but less than 25.2 KG of Cocaine Base;
• At least 30 KG but less than 90 KG of PCP, or at least 3 KG but less than 9 KG of PCP
(actual);
• At least 15 KG but less than 45 KG of Methamphetamine, or at least 1.5 KG but less than
4.5 KG of Methamphetamine (actual), or at least 1.5 KG but less than 4.5 KG of “Ice”;
• At least 15 KG but less than 45 KG of Amphetamine, or at least 1.5 KG but less than 4.5
KG of Amphetamine (actual);
• At least 300 G but less than 900 G of LSD;
• At least 12 KG but less than 36 KG of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide);
• At least 3 KG but less than 9 KG of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide) Analogue;
• At least 30,000 KG but less than 90,000 KG of Marihuana;
• At least 6,000 KG but less than 18,000 KG of Hashish;
• At least 600 KG but less than 1,800 KG of Hashish Oil;
• At least 30,000,000 units but less than 90,000,000 units of Ketamine;
• At least 30,000,000 units but less than 90,000,000 units of Schedule I or II Depressants;
• At least 1,875,000 units but less than 5,625,000 units of Flunitrazepam;
• At least 30,000 KG but less than 90,000 KG of Converted Drug Weight.
(3)

• At least 10 KG but less than 30 KG of Heroin;

Level 34

• At least 50 KG but less than 150 KG of Cocaine;
• At least 2.8 KG but less than 8.4 KG of Cocaine Base;
• At least 10 KG but less than 30 KG of PCP, or at least 1 KG but less than 3 KG of PCP
(actual);

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 026 5

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• At least 5 KG but less than 15 KG of Methamphetamine, or at least 500 G but less than 1.5
KG of Methamphetamine (actual), or at least 500 G but less than 1.5 KG of “Ice”;
• At least 5 KG but less than 15 KG of Amphetamine, or at least 500 G but less than 1.5 KG
of Amphetamine (actual);
• At least 100 G but less than 300 G of LSD;
• At least 4 KG but less than 12 KG of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide);
• At least 1 KG but less than 3 KG of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide) Analogue;
• At least 10,000 KG but less than 30,000 KG of Marihuana;
• At least 2,000 KG but less than 6,000 KG of Hashish;
• At least 200 KG but less than 600 KG of Hashish Oil;
• At least 10,000,000 but less than 30,000,000 units of Ketamine;
• At least 10,000,000 but less than 30,000,000 units of Schedule I or II Depressants;
• At least 625,000 but less than 1,875,000 units of Flunitrazepam;
• At least 10,000 KG but less than 30,000 KG of Converted Drug Weight.
(4)

• At least 3 KG but less than 10 KG of Heroin;

Level 32

• At least 15 KG but less than 50 KG of Cocaine;
• At least 840 G but less than 2.8 KG of Cocaine Base;
• At least 3 KG but less than 10 KG of PCP, or at least 300 G but less than 1 KG of PCP
(actual);
• At least 1.5 KG but less than 5 KG of Methamphetamine, or at least 150 G but less than 500
G of Methamphetamine (actual), or at least 150 G but less than 500 G of “Ice”;
• At least 1.5 KG but less than 5 KG of Amphetamine, or at least 150 G but less than 500 G
of Amphetamine (actual);
• At least 30 G but less than 100 G of LSD;
• At least 1.2 KG but less than 4 KG of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide);
• At least 300 G but less than 1 KG of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide) Analogue;
• At least 3,000 KG but less than 10,000 KG of Marihuana;
• At least 600 KG but less than 2,000 KG of Hashish;
• At least 60 KG but less than 200 KG of Hashish Oil;
• At least 3,000,000 but less than 10,000,000 units of Ketamine;
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 027 6

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• At least 3,000,000 but less than 10,000,000 units of Schedule I or II Depressants;
• At least 187,500 but less than 625,000 units of Flunitrazepam;
• At least 3,000 KG but less than 10,000 KG of Converted Drug Weight.
(5)

• At least 1 KG but less than 3 KG of Heroin;

Level 30

• At least 5 KG but less than 15 KG of Cocaine;
• At least 280 G but less than 840 G of Cocaine Base;
• At least 1 KG but less than 3 KG of PCP, or at least 100 G but less than 300 G of PCP
(actual);
• At least 500 G but less than 1.5 KG of Methamphetamine, at least 50 G but less than 150 G
of Methamphetamine (actual), or at least 50 G but less than 150 G of "Ice";
• At least 500 G but less than 1.5 KG of Amphetamine, or at least 50 G but less than 150 G of
Amphetamine (actual);
• At least 10 G but less than 30 G of LSD;
• At least 400 G but less than 1.2 KG of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide);
• At least 100 G but less than 300 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide) Analogue;
• At least 1,000 KG but less than 3,000 KG of Marihuana;
• At least 200 KG but less than 600 KG of Hashish;
• At least 20 KG but less than 60 KG of Hashish Oil;
• At least 1,000,000 but less than 3,000,000 units of Ketamine;
• At least 1,000,000 but less than 3,000,000 units of Schedule I or II Depressants;
• At least 62,500 but less than 187,500 units of Flunitrazepam;
• At least 1,000 KG but less than 3,000 KG of Converted Drug Weight.
(6)

• At least 700 G but less than 1 KG of Heroin;

Level 28

• At least 3.5 KG but less than 5 KG of Cocaine;
• At least 196 G but less than 280 G of Cocaine Base;
• At least 700 G but less than 1 KG of PCP, or at least 70 G but less than 100 G of PCP
(actual);
• At least 350 G but less than 500 G of Methamphetamine, or at least 35 G but less than 50 G
of Methamphetamine (actual), or at least 35 G but less than 50 G of “Ice”;
• At least 350 G but less than 500 G of Amphetamine, or at least 35 G but less than 50 G of
Amphetamine (actual);
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 028 7

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• At least 7 G but less than 10 G of LSD;
• At least 280 G but less than 400 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide);
• At least 70 G but less than 100 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide) Analogue;
• At least 700 KG but less than 1,000 KG of Marihuana;
• At least 140 KG but less than 200 KG of Hashish;
• At least 14 KG but less than 20 KG of Hashish Oil;
• At least 700,000 but less than 1,000,000 units of Ketamine;
• At least 700,000 but less than 1,000,000 units of Schedule I or II Depressants;
• At least 43,750 but less than 62,500 units of Flunitrazepam;
• At least 700 KG but less than 1,000 KG of Converted Drug Weight.
(7)

• At least 400 G but less than 700 G of Heroin;

Level 26

• At least 2 KG but less than 3.5 KG of Cocaine;
• At least 112 G but less than 196 G of Cocaine Base;
• At least 400 G but less than 700 G of PCP, or at least 40 G but less than 70 G of PCP
(actual);
• At least 200 G but less than 350 G of Methamphetamine, or at least 20 G but less than 35 G
of Methamphetamine (actual), or at least 20 G but less than 35 G of “Ice”;
• At least 200 G but less than 350 G of Amphetamine, or at least 20 G but less than 35 G of
Amphetamine (actual);
• At least 4 G but less than 7 G of LSD;
• At least 160 G but less than 280 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide);
• At least 40 G but less than 70 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide) Analogue;
• At least 400 KG but less than 700 KG of Marihuana;
• At least 80 KG but less than 140 KG of Hashish;
• At least 8 KG but less than 14 KG of Hashish Oil;
• At least 400,000 but less than 700,000 units of Ketamine;
• At least 400,000 but less than 700,000 units of Schedule I or II Depressants;
• At least 25,000 but less than 43,750 units of Flunitrazepam;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 029 8

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• At least 400 KG but less than 700 KG of Converted Drug Weight.
(8)

• At least 100 G but less than 400 G of Heroin;

Level 24

• At least 500 G but less than 2 KG of Cocaine;
• At least 28 G but less than 112 G of Cocaine Base;
• At least 100 G but less than 400 G of PCP, or at least 10 G but less than 40 G of PCP
(actual);
• At least 50 G but less than 200 G of Methamphetamine, or at least 5 G but less than 20 G of
Methamphetamine (actual), or at least 5 G but less than 20 G of “Ice”;
• At least 50 G but less than 200 G of Amphetamine, or at least 5 G but less than 20 G of
Amphetamine (actual);
• At least 1 G but less than 4 G of LSD;
• At least 40 G but less than 160 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide);
• At least 10 G but less than 40 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] Propanamide) Analogue;
• At least 100 KG but less than 400 KG of Marihuana;
• At least 20 KG but less than 80 KG of Hashish;
• At least 2 KG but less than 8 KG of Hashish Oil;
• At least 100,000 but less than 400,000 units of Ketamine;
• At least 100,000 but less than 400,000 units of Schedule I or II Depressants;
• At least 6,250 but less than 25,000 units of Flunitrazepam;
• At least 100 KG but less than 400 KG of Converted Drug Weight.
(9)

• At least 80 G but less than 100 G of Heroin;

Level 22

• At least 400 G but less than 500 G of Cocaine;
• At least 22.4 G but less than 28 G of Cocaine Base;
• At least 80 G but less than 100 G of PCP, or at least 8 G but less than 10 G of PCP (actual);
• At least 40 G but less than 50 G of Methamphetamine, or at least 4 G but less than 5 G of
Methamphetamine (actual), or at least 4 G but less than 5 G of “Ice”;
• At least 40 G but less than 50 G of Amphetamine, or at least 4 G but less than 5 G of
Amphetamine (actual);
• At least 800 MG but less than 1 G of LSD;
• At least 32 G but less than 40 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide);

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 030 9

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• At least 8 G but less than 10 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide) Analogue;
• At least 80 KG but less than 100 KG of Marihuana;
• At least 16 KG but less than 20 KG of Hashish;
• At least 1.6 KG but less than 2 KG of Hashish Oil;
• At least 80,000 but less than 100,000 units of Ketamine;
• At least 80,000 but less than 100,000 units of Schedule I or II Depressants;
• At least 5,000 but less than 6,250 units of Flunitrazepam;
• At least 80 KG but less than 100 KG of Converted Drug Weight.
(10)

• At least 60 G but less than 80 G of Heroin;

Level 20

• At least 300 G but less than 400 G of Cocaine;
• At least 16.8 G but less than 22.4 G of Cocaine Base;
• At least 60 G but less than 80 G of PCP, or at least 6 G but less than 8 G of PCP (actual);
• At least 30 G but less than 40 G of Methamphetamine, or at least 3 G but less than 4 G of
Methamphetamine (actual), or at least 3 G but less than 4 G of “Ice”;
• At least 30 G but less than 40 G of Amphetamine, or at least 3 G but less than 4 G of
Amphetamine (actual);
• At least 600 MG but less than 800 MG of LSD;
• At least 24 G but less than 32 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide);
• At least 6 G but less than 8 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide) Analogue;
• At least 60 KG but less than 80 KG of Marihuana;
• At least 12 KG but less than 16 KG of Hashish;
• At least 1.2 KG but less than 1.6 KG of Hashish Oil;
• At least 60,000 but less than 80,000 units of Ketamine;
• At least 60,000 but less than 80,000 units of Schedule I or II Depressants;
• 60,000 units or more of Schedule III substances (except Ketamine);
• At least 3,750 but less than 5,000 units of Flunitrazepam;
• At least 60 KG but less than 80 KG of Converted Drug Weight.
(11)

• At least 40 G but less than 60 G of Heroin;

Level 18

• At least 200 G but less than 300 G of Cocaine;
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 031 10

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• At least 11.2 G but less than 16.8 G of Cocaine Base;
• At least 40 G but less than 60 G of PCP, or at least 4 G but less than 6 G of PCP (actual);
• At least 20 G but less than 30 G of Methamphetamine, or at least 2 G but less than 3 G of
Methamphetamine (actual), or at least 2 G but less than 3 G of “Ice”;
• At least 20 G but less than 30 G of Amphetamine, or at least 2 G but less than 3 G of
Amphetamine (actual);
• At least 400 MG but less than 600 MG of LSD;
• At least 16 G but less than 24 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide);
• At least 4 G but less than 6 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide) Analogue;
• At least 40 KG but less than 60 KG of Marihuana;
• At least 8 KG but less than 12 KG of Hashish;
• At least 800 G but less than 1.2 KG of Hashish Oil;
• At least 40,000 but less than 60,000 units of Ketamine;
• At least 40,000 but less than 60,000 units of Schedule I or II Depressants;
• At least 40,000 but less than 60,000 units of Schedule III substances (except Ketamine);
• At least 2,500 but less than 3,750 units of Flunitrazepam;
• At least 40 KG but less than 60 KG of Converted Drug Weight.
(12)

• At least 20 G but less than 40 G of Heroin;

Level 16

• At least 100 G but less than 200 G of Cocaine;
• At least 5.6 G but less than 11.2 G of Cocaine Base;
• At least 20 G but less than 40 G of PCP, or at least 2 G but less than 4 G of PCP (actual);
• At least 10 G but less than 20 G of Methamphetamine, or at least 1 G but less than 2 G of
Methamphetamine (actual), or at least 1 G but less than 2 G of “Ice”;
• At least 10 G but less than 20 G of Amphetamine, or at least 1 G but less than 2 G of
Amphetamine (actual);
• At least 200 MG but less than 400 MG of LSD;
• At least 8 G but less than 16 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide);
• At least 2 G but less than 4 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide) Analogue;
• At least 20 KG but less than 40 KG of Marihuana;
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 032 11

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• At least 5 KG but less than 8 KG of Hashish;
• At least 500 G but less than 800 G of Hashish Oil;
• At least 20,000 but less than 40,000 units of Ketamine;
• At least 20,000 but less than 40,000 units of Schedule I or II Depressants;
• At least 20,000 but less than 40,000 units of Schedule III substances (except Ketamine);
• At least 1,250 but less than 2,500 units of Flunitrazepam;
• At least 20 KG but less than 40 KG of Converted Drug Weight.
(13)

• At least 10 G but less than 20 G of Heroin;

Level 14

• At least 50 G but less than 100 G of Cocaine;
• At least 2.8 G but less than 5.6 G of Cocaine Base;
• At least 10 G but less than 20 G of PCP, or at least 1 G but less than 2 G of PCP (actual);
• At least 5 G but less than 10 G of Methamphetamine, or at least 500 MG but less than 1 G
of Methamphetamine (actual), or at least 500 MG but less than 1 G of “Ice”;
• At least 5 G but less than 10 G of Amphetamine, or at least 500 MG but less than 1 G of
Amphetamine (actual);
• At least 100 MG but less than 200 MG of LSD;
• At least 4 G but less than 8 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide);
• At least 1 G but less than 2 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
Propanamide) Analogue;
• At least 10 KG but less than 20 KG of Marihuana;
• At least 2 KG but less than 5 KG of Hashish;
• At least 200 G but less than 500 G of Hashish Oil;
• At least 10,000 but less than 20,000 units of Ketamine;
• At least 10,000 but less than 20,000 units of Schedule I or II Depressants;
• At least 10,000 but less than 20,000 units of Schedule III substances (except Ketamine);
• At least 625 but less than 1,250 units of Flunitrazepam;
• At least 10 KG but less than 20 KG of Converted Drug Weight.
(14)

• Less than 10 G of Heroin;

Level 12

• Less than 50 G of Cocaine;
• Less than 2.8 G of Cocaine Base;
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 033 12

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• Less than 10 G of PCP, or less than 1 G of PCP (actual);
• Less than 5 G of Methamphetamine, or less than 500 MG of Methamphetamine (actual), or
less than 500 MG of “Ice”;
• Less than 5 G of Amphetamine, or less than 500 MG of Amphetamine (actual);
• Less than 100 MG of LSD;
• Less than 4 G of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] Propanamide);
• Less than 1 G of a Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] Propanamide)
Analogue;
• At least 5 KG but less than 10 KG of Marihuana;
• At least 1 KG but less than 2 KG of Hashish;
• At least 100 G but less than 200 G of Hashish Oil;
• At least 5,000 but less than 10,000 units of Ketamine;
• At least 5,000 but less than 10,000 units of Schedule I or II Depressants;
• At least 5,000 but less than 10,000 units of Schedule III substances (except Ketamine);
• At least 312 but less than 625 units of Flunitrazepam;
• 80,000 units or more of Schedule IV substances (except Flunitrazepam);
• At least 5 KG but less than 10 KG of Converted Drug Weight.
(15)

• At least 2.5 KG but less than 5 KG of Marihuana;

Level 10

• At least 500 G but less than 1 KG of Hashish;
• At least 50 G but less than 100 G of Hashish Oil;
• At least 2,500 but less than 5,000 units of Ketamine;
• At least 2,500 but less than 5,000 units of Schedule I or II Depressants;
• At least 2,500 but less than 5,000 units of Schedule III substances (except Ketamine);
• At least 156 but less than 312 units of Flunitrazepam;
• At least 40,000 but less than 80,000 units of Schedule IV substances (except
Flunitrazepam);
• At least 2.5 KG but less than 5 KG of Converted Drug Weight.
(16)

• At least 1 KG but less than 2.5 KG of Marihuana;

Level 8

• At least 200 G but less than 500 G of Hashish;
• At least 20 G but less than 50 G of Hashish Oil;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 034 13

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

• At least 1,000 units but less than 2,500 units of Ketamine;
• At least 1,000 but less than 2,500 units of Schedule I or II Depressants;
• At least 1,000 but less than 2,500 units of Schedule III substances (except Ketamine);
• Less than 156 units of Flunitrazepam;
• At least 16,000 but less than 40,000 units of Schedule IV substances (except
Flunitrazepam);
• 160,000 units or more of Schedule V substances;
• At least 1 KG but less than 2.5 KG of Converted Drug Weight.
(17)

• Less than 1 KG of Marihuana;

Level 6

• Less than 200 G of Hashish;
• Less than 20 G of Hashish Oil;
• Less than 1,000 units of Ketamine;
• Less than 1,000 units of Schedule I or II Depressants;
• Less than 1,000 units of Schedule III substances (except Ketamine);
• Less than 16,000 units of Schedule IV substances (except Flunitrazepam);
• Less than 160,000 units of Schedule V substances;
• Less than 1 KG of Converted Drug Weight.
*Notes to Drug Quantity Table:
(A) Unless otherwise specified, the weight of a controlled substance set forth in the table refers to the entire weight of any
mixture or substance containing a detectable amount of the controlled substance. If a mixture or substance contains more than
one controlled substance, the weight of the entire mixture or substance is assigned to the controlled substance that results in
the greater offense level.
(B) The terms “PCP (actual)”, “Amphetamine (actual)”, and “Methamphetamine (actual)” refer to the weight of the controlled
substance, itself, contained in the mixture or substance. For example, a mixture weighing 10 grams containing PCP at 50% purity
contains 5 grams of PCP (actual). In the case of a mixture or substance containing PCP, amphetamine, or methamphetamine,
use the offense level determined by the entire weight of the mixture or substance, or the offense level determined by the weight
of the PCP (actual), amphetamine (actual), or methamphetamine (actual), whichever is greater.
The terms “Hydrocodone (actual)” and “Oxycodone (actual)” refer to the weight of the controlled substance, itself, contained
in the pill, capsule, or mixture.
(C) “Ice,” for the purposes of this guideline, means a mixture or substance containing d-methamphetamine hydrochloride of
at least 80% purity.
(D) “Cocaine base,” for the purposes of this guideline, means “crack.” “Crack” is the street name for a form of cocaine base,
usually prepared by processing cocaine hydrochloride and sodium bicarbonate, and usually appearing in a lumpy, rocklike form.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 035 14

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

(E) In the case of an offense involving marihuana plants, treat each plant, regardless of sex, as equivalent to 100 grams of
marihuana. Provided, however, that if the actual weight of the marihuana is greater, use the actual weight of the marihuana.
(F) In the case of Schedule I or II Depressants (except gamma-hydroxybutyric acid), Schedule III substances, Schedule
IV substances, and Schedule V substances, one “unit” means one pill, capsule, or tablet. If the substance (except gammahydroxybutyric acid) is in liquid form, one “unit” means 0.5 milliliters. For an anabolic steroid that is not in a pill, capsule,
tablet, or liquid form (e.g., patch, topical cream, aerosol), the court shall determine the base offense level using a reasonable
estimate of the quantity of anabolic steroid involved in the offense. In making a reasonable estimate, the court shall consider
that each 25 milligrams of an anabolic steroid is one “unit”.
(G) In the case of LSD on a carrier medium (e.g., a sheet of blotter paper), do not use the weight of the LSD/carrier medium.
Instead, treat each dose of LSD on the carrier medium as equal to 0.4 milligrams of LSD for the purposes of the Drug Quantity
Table.
(H) Hashish, for the purposes of this guideline, means a resinous substance of cannabis that includes (i) one or more of the
tetrahydrocannabinols (as listed in 21 C.F.R. § 1308.11(d)(31)), (ii) at least two of the following: cannabinol, cannabidiol, or
cannabichromene, and (iii) fragments of plant material (such as cystolith fibers).
(I) Hashish oil, for the purposes of this guideline, means a preparation of the soluble cannabinoids derived from cannabis that
includes (i) one or more of the tetrahydrocannabinols (as listed in 21 C.F.R. § 1308.11(d)(31)), (ii) at least two of the following:
cannabinol, cannabidiol, or cannabichromene, and (iii) is essentially free of plant material (e.g., plant fragments). Typically,
hashish oil is a viscous, dark colored oil, but it can vary from a dry resin to a colorless liquid.
(J) Fentanyl analogue, for the purposes of this guideline, means any substance (including any salt, isomer, or salt of isomer
thereof), whether a controlled substance or not, that has a chemical structure that is similar to fentanyl (N-phenyl-N-[1-(2phenylethyl)-4-piperidinyl] propanamide).
(K) The term “Converted Drug Weight,” for purposes of this guideline, refers to a nominal reference designation that is used as a
conversion factor in the Drug Conversion Tables set forth in the Commentary below, to determine the offense level for controlled
substances that are not specifically referenced in the Drug Quantity Table or when combining differing controlled substances.
(d) Cross References
(1) If a victim was killed under circumstances that would constitute murder under 18 U.S.C. § 1111 had such killing taken
place within the territorial or maritime jurisdiction of the United States, apply § 2A1.1 (First Degree Murder) or § 2A1.2
(Second Degree Murder), as appropriate, if the resulting offense level is greater than that determined under this guideline.
(2) If the defendant was convicted under 21 U.S.C. § 841(b)(7) (of distributing a controlled substance with intent to commit
a crime of violence), apply § 2X1.1 (Attempt, Solicitation or Conspiracy) in respect to the crime of violence that the
defendant committed, or attempted or intended to commit, if the resulting offense level is greater than that determined
above.
(e) Special Instruction

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 036 15

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

(1) If (A) subsection (d)(2) does not apply; and (B) the defendant committed, or attempted to commit, a sexual offense against
another individual by distributing, with or without that individual's knowledge, a controlled substance to that individual, an
adjustment under § 3A1.1(b)(1) shall apply.
CREDIT(S)
(Effective November 1, 1987; amended effective January 15, 1988; November 1, 1989; November 1, 1990; November 1,
1991; November 1, 1992; November 1, 1993; September 23, 1994; November 1, 1994; November 1, 1995; November 1, 1997;
November 1, 2000; December 16, 2000: May 1, 2001; November 1, 2001; November 1, 2002; November 1, 2003; November 1,
2004; November 1, 2005; March 27, 2006; November 1, 2006; November 1, 2007; May 1, 2008; November 1, 2009; November
1, 2010; November 1, 2011; November 1, 2012; November 1, 2013; November 1, 2014; November 1, 2015; November 1, 2018.)
CONGRESSIONAL ACTION
<Pub.L. 104-38, § 1, Oct. 30, 1995, 109 Stat. 334, disapproved proposed amendments numbered 5 and 18 of the
“Amendments to the Sentencing Guidelines, Policy Statements, and Official Commentary” lowering sentences for
crack, money laundering, and transactions in property derived from unlawful activity, submitted by the United States
Sentencing Commission to Congress on May 1, 1995.>
COMMENTARY
<Statutory Provisions: 21 U.S.C. §§ 841(a), (b)(1)-(3), (7), (g), 860a, 865, 960(a), (b); 49 U.S.C. § 46317(b). For
additional statutory provision(s), see Appendix A (Statutory Index).>
<Application Notes:>
<1. “Mixture or Substance”.--“Mixture or substance” as used in this guideline has the same meaning as in 21 U.S.C.
§ 841, except as expressly provided. Mixture or substance does not include materials that must be separated from the
controlled substance before the controlled substance can be used. Examples of such materials include the fiberglass in
a cocaine/fiberglass bonded suitcase, beeswax in a cocaine/beeswax statue, and waste water from an illicit laboratory
used to manufacture a controlled substance. If such material cannot readily be separated from the mixture or substance
that appropriately is counted in the Drug Quantity Table, the court may use any reasonable method to approximate
the weight of the mixture or substance to be counted.>
<An upward departure nonetheless may be warranted when the mixture or substance counted in the Drug Quantity
Table is combined with other, non-countable material in an unusually sophisticated manner in order to avoid
detection.>
<Similarly, in the case of marihuana having a moisture content that renders the marihuana unsuitable for consumption
without drying (this might occur, for example, with a bale of rain-soaked marihuana or freshly harvested marihuana
that had not been dried), an approximation of the weight of the marihuana without such excess moisture content is
to be used.>
<2. “Plant”.--For purposes of the guidelines, a “plant” is an organism having leaves and a readily observable root
formation (e.g., a marihuana cutting having roots, a rootball, or root hairs is a marihuana plant).>

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 037 16

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

<3. Classification of Controlled Substances.--Certain pharmaceutical preparations are classified as Schedule III, IV,
or V controlled substances by the Drug Enforcement Administration under 21 C.F.R. § 1308.13-15 even though they
contain a small amount of a Schedule I or II controlled substance. For example, Tylenol 3 is classified as a Schedule
III controlled substance even though it contains a small amount of codeine, a Schedule II opiate. For the purposes
of the guidelines, the classification of the controlled substance under 21 C.F.R. § 1308.13-15 is the appropriate
classification.>
<4. Applicability to “Counterfeit” Substances.--The statute and guideline also apply to “counterfeit” substances,
which are defined in 21 U.S.C. § 802 to mean controlled substances that are falsely labeled so as to appear to have
been legitimately manufactured or distributed.>
<5. Determining Drug Types and Drug Quantities.--Types and quantities of drugs not specified in the count of
conviction may be considered in determining the offense level. See § 1B1.3(a)(2) (Relevant Conduct). Where there is
no drug seizure or the amount seized does not reflect the scale of the offense, the court shall approximate the quantity
of the controlled substance. In making this determination, the court may consider, for example, the price generally
obtained for the controlled substance, financial or other records, similar transactions in controlled substances by the
defendant, and the size or capability of any laboratory involved.>
<If the offense involved both a substantive drug offense and an attempt or conspiracy (e.g., sale of five grams of
heroin and an attempt to sell an additional ten grams of heroin), the total quantity involved shall be aggregated to
determine the scale of the offense.>
<In an offense involving an agreement to sell a controlled substance, the agreed-upon quantity of the controlled
substance shall be used to determine the offense level unless the sale is completed and the amount delivered more
accurately reflects the scale of the offense. For example, a defendant agrees to sell 500 grams of cocaine, the
transaction is completed by the delivery of the controlled substance--actually 480 grams of cocaine, and no further
delivery is scheduled. In this example, the amount delivered more accurately reflects the scale of the offense. In
contrast, in a reverse sting, the agreed-upon quantity of the controlled substance would more accurately reflect the
scale of the offense because the amount actually delivered is controlled by the government, not by the defendant. If,
however, the defendant establishes that the defendant did not intend to provide or purchase, or was not reasonably
capable of providing or purchasing, the agreed-upon quantity of the controlled substance, the court shall exclude from
the offense level determination the amount of controlled substance that the defendant establishes that the defendant
did not intend to provide or purchase or was not reasonably capable of providing or purchasing.>
<6. Analogues and Controlled Substances Not Referenced in this Guideline.--Except as otherwise provided, any
reference to a particular controlled substance in these guidelines includes all salts, isomers, all salts of isomers, and
any analogue of that controlled substance. Any reference to cocaine includes ecgonine and coca leaves, except extracts
of coca leaves from which cocaine and ecgonine have been removed. Unless otherwise specified, “analogue,” for
purposes of this guideline, has the meaning given the term “controlled substance analogue” in 21 U.S.C. § 802(32).
In determining the appropriate sentence, the court also may consider whether the same quantity of analogue produces
a greater effect on the central nervous system than the controlled substance for which it is an analogue.>
<In the case of a controlled substance that is not specifically referenced in this guideline, determine the base offense
level using the converted drug weight of the most closely related controlled substance referenced in this guideline.
See Application Note 8. In determining the most closely related controlled substance, the court shall, to the extent
practicable, consider the following:>
<(A) Whether the controlled substance not referenced in this guideline has a chemical structure that is substantially
similar to a controlled substance referenced in this guideline.>

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 038 17

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

<(B) Whether the controlled substance not referenced in this guideline has a stimulant, depressant, or hallucinogenic
effect on the central nervous system that is substantially similar to the stimulant, depressant, or hallucinogenic
effect on the central nervous system of a controlled substance referenced in this guideline.>
<(C) Whether a lesser or greater quantity of the controlled substance not referenced in this guideline is needed to
produce a substantially similar effect on the central nervous system as a controlled substance referenced in this
guideline.>
<7. Multiple Transactions or Multiple Drug Types.--Where there are multiple transactions or multiple drug types,
the quantities of drugs are to be added. Tables for making the necessary conversions are provided below.>
<8. Use of Drug Conversion Tables.-->
<(A) Controlled Substances Not Referenced in Drug Quantity Table.--The Commission has used the sentences
provided in, and equivalences derived from, the statute (21 U.S.C. § 841(b)(1)), as the primary basis for the
guideline sentences. The statute, however, provides direction only for the more common controlled substances, i.e.,
heroin, cocaine, PCP, methamphetamine, fentanyl, LSD and marihuana. In the case of a controlled substance that
is not specifically referenced in the Drug Quantity Table, determine the base offense level as follows:>
<(i) Use the Drug Conversion Tables to find the converted drug weight of the controlled substance involved
in the offense.>
<(ii) Find the corresponding converted drug weight in the Drug Quantity Table.>
<(iii) Use the offense level that corresponds to the converted drug weight determined above as the base offense
level for the controlled substance involved in the offense.>
<(See also Application Note 6.) For example, in the Drug Conversion Tables set forth in this Note, 1 gram of a
substance containing oxymorphone, a Schedule I opiate, converts to 5 kilograms of converted drug weight. In a case
involving 100 grams of oxymorphone, the converted drug weight would be 500 kilograms, which corresponds to a
base offense level of 26 in the Drug Quantity Table.>

<(B) Combining Differing Controlled Substances.--The Drug Conversion Tables also provide a means for
combining differing controlled substances to obtain a single offense level. In each case, convert each of the drugs
to its converted drug weight, add the quantities, and look up the total in the Drug Quantity Table to obtain the
combined offense level.>
<For certain types of controlled substances, the converted drug weights assigned in the Drug Conversion Tables are
“capped” at specified amounts (e.g., the combined converted weight of all Schedule V controlled substances shall not
exceed 2.49 kilograms of converted drug weight). Where there are controlled substances from more than one schedule
(e.g., a quantity of a Schedule IV substance and a quantity of a Schedule V substance), determine the converted drug
weight for each schedule separately (subject to the cap, if any, applicable to that schedule). Then add the converted
drug weights to determine the combined converted drug weight (subject to the cap, if any, applicable to the combined
amounts).>
<Note: Because of the statutory equivalences, the ratios in the Drug Conversion Tables do not necessarily reflect
dosages based on pharmacological equivalents.>
<(C) Examples for Combining Differing Controlled Substances.-->

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 039 18

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

<(i) The defendant is convicted of selling 70 grams of a substance containing PCP (Level 20) and 250 milligrams
of a substance containing LSD (Level 16). The PCP converts to 70 kilograms of converted drug weight; the LSD
converts to 25 kilograms of converted drug weight. The total therefore converts to 95 kilograms of converted
drug weight, for which the Drug Quantity Table provides an offense level of 22.>
<(ii) The defendant is convicted of selling 500 grams of marihuana (Level 6) and 10,000 units of diazepam
(Level 6). The marihuana converts to 500 grams of converted drug weight. The diazepam, a Schedule IV drug,
converts to 625 grams of converted drug weight. The total, 1.125 kilograms of converted drug weight, has an
offense level of 8 in the Drug Quantity Table.>
<(iii) The defendant is convicted of selling 80 grams of cocaine (Level 14) and 2 grams of cocaine base (Level
12). The cocaine converts to 16 kilograms of converted drug weight, and the cocaine base converts to 7.142
kilograms of converted drug weight. The total therefore converts to 23.142 kilograms of converted drug weight,
which has an offense level of 16 in the Drug Quantity Table.>
<(iv) The defendant is convicted of selling 76,000 units of a Schedule III substance, 200,000 units of a Schedule
IV substance, and 600,000 units of a Schedule V substance. The converted drug weight for the Schedule III
substance is 76 kilograms (below the cap of 79.99 kilograms of converted drug weight set forth as the maximum
converted weight for Schedule III substances). The converted drug weight for the Schedule IV substance is
subject to a cap of 9.99 kilograms set forth as the maximum converted weight for Schedule IV substances (without
the cap it would have been 12.5 kilograms). The converted drug weight for the Schedule V substance is subject
to the cap of 2.49 kilograms set forth as the maximum converted weight for Schedule V substances (without the
cap it would have been 3.75 kilograms). The combined converted weight, determined by adding together above
amounts, is subject to the cap of 79.99 kilograms of converted drug weight set forth as the maximum combined
converted weight for Schedule III, IV, and V substances. Without the cap, the combined converted weight would
have been 88.48 (76 + 9.99 + 2.49) kilograms.>

(D) Drug Conversion Tables.-Schedule I or II Opiates* Converted Drug Weight
1 gm of Heroin = 1 kg
1 gm of Dextromoramide = 670 gm
1 gm of Dipipanone = 250 gm
1 gm of 1-Methyl-4-phenyl-4-propionoxypiperidine/MPPP = 700 gm
1 gm of 1-(2-Phenylethyl)-4-phenyl-4-acetyloxypiperidine/PEPAP = 700 gm
1 gm of Alphaprodine = 100 gm
1 gm of Fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] Propanamide) = 2.5 kg
1 gm of a Fentanyl Analogue = 10 kg
1 gm of Hydromorphone/Dihydromorphinone = 2.5 kg
1 gm of Levorphanol = 2.5 kg

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 040 19

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

1 gm of Meperidine/Pethidine = 50 gm
1 gm of Methadone = 500 gm
1 gm of 6-Monoacetylmorphine = 1 kg
1 gm of Morphine = 500 gm
1 gm of Oxycodone (actual) = 6700 gm
1 gm of Oxymorphone = 5 kg of marihuana
1 gm of Racemorphan = 800 gm
1 gm of Codeine = 80 gm
1 gm of Dextropropoxyphene/Propoxyphene-Bulk = 50 gm
1 gm of Ethylmorphine = 165 gm
1 gm of Hydrocodone (actual) = 6700 gm
1 gm of Mixed Alkaloids of Opium/Papaveretum = 250 gm
1 gm of Opium = 50 gm
1 gm of Levo-alpha-acetylmethadol (LAAM) = 3 kg
* Provided, that the minimum offense level from the Drug Quantity Table for any of these controlled substances
individually, or in combination with another controlled substance, is level 12.
Cocaine and Other Schedule I and II Stimulants (and their immediate precursors)* Converted Drug Weight
1 gm of Cocaine = 200 gm
1 gm of N-Ethylamphetamine = 80 gm
1 gm of Fenethylline = 40 gm
1 gm of Amphetamine = 2 kg
1 gm of Amphetamine (Actual) = 20 kg
1 gm of Methamphetamine = 2 kg
1 gm of Methamphetamine (Actual) = 20 kg
1 gm of “Ice” = 20 kg
1 gm of Khat = .01 gm
1 gm of 4-Methylaminorex (“Euphoria”) = 100 gm
1 gm of Methylphenidate (Ritalin) = 100 gm
1 gm of Phenmetrazine = 80 gm
1 gm of Phenylacetone/P2P (when possessed for the purpose of manufacturing methamphetamine) = 416 gm
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 041 20

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

1 gm of Phenylacetone/P2P (in any other case) = 75 gm
1 gm Cocaine Base (“Crack”) = 3,571 gm
1 gm of Aminorex = 100 gm
1 gm of N-N-Dimethylamphetamine = 40 gm.
1 gm of N-Benzylpiperazine = 100 gm
* Provided, that the minimum offense level from the Drug Quantity Table for any of these controlled substances
individually, or in combination with another controlled substance, is level 12.
Synthetic Cathinones (except Schedule III, IV, and V Substances)* Converted Drug Weight
1 gm of a synthetic cathinone
(except a Schedule III, IV, or V substance) = 380 gm
* *Provided, that the minimum offense level from the Drug Quantity Table for any synthetic cathinone (except a Schedule
III, IV, or V substance) individually, or in combination with another controlled substance, is level 12.
LSD, PCP, and Other Schedule I and II Hallucinogens (and their immediate precursors)* Converted Drug Weight
1 gm of Bufotenine = 70 gm
1 gm of D-Lysergic Acid Diethylamide/Lysergide/LSD = 100 kg
1 gm of Diethyltryptamine/DET = 80 gm
1 gm of Dimethyltryptamine/DMT = 100 gm
1 gm of Mescaline = 10 gm
1 gm of Mushrooms containing Psilocin and/or Psilocybin (Dry) = 1 gm
1 gm of Mushrooms containing Psilocin and/or Psilocybin (Wet) = 0.1 gm
1 gm of Peyote (Dry) = 0.5 gm
1 gm of Peyote (Wet) = 0.05 gm
1 gm of Phencyclidine/PCP = 1 kg
1 gm of Phencyclidine (actual)/PCP (actual) = 10 kg
1 gm of Psilocin = 500 gm
1 gm of Psilocybin = 500 gm
1 gm of Pyrrolidine Analog of Phencyclidine/PHP = 1 kg
1 gm of Thiophene Analog of Phencyclidine/TCP = 1 kg
1 gm of 4-Bromo-2,5-Dimethoxyamphetamine/DOB = 2.5 kg
1 gm of 2,5-Dimethoxy-4-methylamphetamine/DOM = 1.67 kg
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 042 21

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

1 gm of 3,4-Methylenedioxyamphetamine/MDA = 500 gm
1 gm of 3,4-Methylenedioxymethamphetamine/MDMA = 500 gm
1 gm of 3,4-Methylenedioxy-N-ethylamphetamine/MDEA = 500 gm
1 gm of Paramethoxymethamphetamine/PMA = 500 gm
1 gm of 1-Piperidinocyclohexanecarbonitrile/PCC = 680 gm
1 gm of N-ethyl-1-phenylcyclohexylamine (PCE) = 1 kg
* Provided, that the minimum offense level from the Drug Quantity Table for any of these controlled substances
individually, or in combination with another controlled substance, is level 12.
Schedule I Marihuana Converted Drug Weight
1 gm of Marihuana/Cannabis, granulated, powdered, etc. = 1 gm
1 gm of Hashish Oil = 50 gm
1 gm of Cannabis Resin or Hashish = 5 gm
1 gm of Tetrahydrocannabinol, Organic = 167 gm
1 gm of Tetrahydrocannabinol, Synthetic = 167 gm
Synthetic Cannabinoids (except Schedule III, IV, and V Substances)* Converted Drug Weight
1 gm of a synthetic cannabinoid
(except a Schedule III, IV, or V substance) = 167 gm
*Provided, that the minimum offense level from the Drug Quantity Table for any synthetic cannabinoid (except a Schedule
III, IV, or V substance) individually, or in combination with another controlled substance, is level 12.
“Synthetic cannabinoid,” for purposes of this guideline, means any synthetic substance (other than synthetic
tetrahydrocannabinol) that binds to and activates type 1 cannabinoid receptors (CB1 receptors).
Flunitrazepam** Converted Drug Weight
1 unit of Flunitrazepam = 16 gm
**Provided, that the minimum offense level from the Drug Quantity Table for flunitrazepam individually, or in
combination with any Schedule I or II depressants, Schedule III substances, Schedule IV substances, and Schedule V
substances is level 8.
Schedule I or II Depressants (except gamma-hydroxybutyric acid) Converted Drug Weight
1 unit of a Schedule I or II Depressant (except gamma-hydroxybutyric acid) = 1 gm.
Gamma-hydroxybutyric Acid Converted Drug Weight
1 ml of gamma-hydroxybutyric acid = 8.8 gm
Schedule III Substances (except ketamine)*** Converted Drug Weight'

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 043 22

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

1 unit of a Schedule III Substance = 1 gm
*** Provided, that the combined converted weight of all Schedule III substances (except ketamine), Schedule IV
substances (except flunitrazepam), and Schedule V substances shall not exceed 79.99 kilograms of converted drug weight.
Ketamine Converted Drug Weight
1 unit of ketamine = 1 gm
Schedule IV Substances (except flunitrazepam)**** Converted Drug Weight
1 unit of a Schedule IV Substance (except flunitrazepam) = 0.0625 gm
****Provided, that the combined converted weight of all Schedule IV (except flunitrazepam) and V substances shall not
exceed 9.99 kilograms of converted drug weight.
Schedule V Substances***** Converted Drug Weight
1 unit of a Schedule V Substance = 0.00625 gm
*****Provided, that the combined converted weight of Schedule V substances shall not exceed 2.49 kilograms of
converted drug weight.
List I Chemicals (relating to the manufacture of amphetamine or methamphetamine)****** Converted Drug Weight
1 gm of Ephedrine = 10 kg
1 gm of Phenylpropanolamine = 10 kg
1 gm of Pseudoephedrine = 10 kg
****** Provided, that in a case involving ephedrine, pseudoephedrine, or phenylpropanolamine tablets, use the weight of
the ephedrine, pseudoephedrine, or phenylpropanolamine contained in the tablets, not the weight of the entire tablets, in
calculating the base offense level.
Date Rape Drugs (except flunitrazepam, GHB, or ketamine) Converted Drug Weight
1 ml of 1,4-butanediol = 8.8 gm
1 ml of gamma butyrolactone = 8.8 gm
<To facilitate conversions to converted drug weight, the following table is provided:>
1 oz = 28.35 gm
1 lb = 453.6 gm
1 lb = 0.4536 kg
1 gal = 3.785 liters
1 qt = 0.946 liters
1 gm = 1 ml (liquid)
1 liter = 1,000 ml

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 044 23

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

1 kg = 1,000 gm
1 gm = 1,000 mg
1 grain = 64.8 mg.
<9. Determining Quantity Based on Doses, Pills, or Capsules. --If the number of doses, pills, or capsules but not
the weight of the controlled substance is known, multiply the number of doses, pills, or capsules by the typical weight
per dose in the table below to estimate the total weight of the controlled substance (e.g., 100 doses of Mescaline at
500 milligrams per dose = 50 grams of mescaline). The Typical Weight Per Unit Table, prepared from information
provided by the Drug Enforcement Administration, displays the typical weight per dose, pill, or capsule for certain
controlled substances. Do not use this table if any more reliable estimate of the total weight is available from casespecific information.>
<TYPICAL WEIGHT PER UNIT (DOSE, PILL, OR CAPSULE) TABLE>
MDA

250 mg

MDMA

250 mg

Mescaline

500 mg
5 mg

PCP *
Peyote (dry)

12 gm

Peyote (wet)

120 gm
10 mg

Psilocin *
Psilocybe mushrooms (dry)

5 gm

Psilocybe mushrooms (wet)

50 gm

Psilocybin *

10 mg

2,5-Dimethoxy-4-methylamphetamine (STP, DOM) *

3 mg

1 marihuana cigarette

0.5 gm

Amphetamine *

10 mg

Methamphetamine *
Phenmetrazine (Preludin) *

5 mg
75 mg

* For controlled substances marked with an asterisk, the weight per unit shown is the weight of the actual controlled
substance, and not generally the weight of the mixture or substance containing the controlled substance. Therefore, use of
this table provides a very conservative estimate of the total weight.
<10. Determining Quantity of LSD.--LSD on a blotter paper carrier medium typically is marked so that the number
of doses (“hits”) per sheet readily can be determined. When this is not the case, it is to be presumed that each ¼ inch
by ¼ inch section of the blotter paper is equal to one dose.>

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 045 24

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

<In the case of liquid LSD (LSD that has not been placed onto a carrier medium), using the weight of the LSD alone
to calculate the offense level may not adequately reflect the seriousness of the offense. In such a case, an upward
departure may be warranted.>
<11. Application of Subsections (b)(1) and (b)(2).-->
<(A) Application of Subsection (b)(1).--Definitions of “firearm” and “dangerous weapon” are found in the
Commentary to § 1B1.1 (Application Instructions). The enhancement for weapon possession in subsection (b)
(1) reflects the increased danger of violence when drug traffickers possess weapons. The enhancement should be
applied if the weapon was present, unless it is clearly improbable that the weapon was connected with the offense.
For example, the enhancement would not be applied if the defendant, arrested at the defendant's residence, had an
unloaded hunting rifle in the closet. The enhancement also applies to offenses that are referenced to § 2D1.1; see
§§ 2D1.2(a)(1) and (2), 2D1.5(a)(1), 2D1.6, 2D1.7(b)(1), 2D1.8, 2D1.11(c)(1), and 2D1.12(c)(1).>
<(B) Interaction of Subsections (b)(1) and (b)(2).--The enhancements in subsections (b)(1) and (b)(2) may be
applied cumulatively (added together), as is generally the case when two or more specific offense characteristics
each apply. See § 1B1.1 (Application Instructions), Application Note 4(A). However, in a case in which the
defendant merely possessed a dangerous weapon but did not use violence, make a credible threat to use violence,
or direct the use of violence, subsection (b)(2) would not apply.>
<12. Application of Subsection (b)(5).--If the offense involved importation of amphetamine or methamphetamine,
and an adjustment from subsection (b)(3) applies, do not apply subsection (b)(5).>
<13. Application of Subsection (b)(7).--For purposes of subsection (b)(7), “mass-marketing by means of an
interactive computer service” means the solicitation, by means of an interactive computer service, of a large number
of persons to induce those persons to purchase a controlled substance. For example, subsection (b)(7) would apply to
a defendant who operated a web site to promote the sale of Gamma-hydroxybutyric Acid (GHB) but would not apply
to coconspirators who use an interactive computer service only to communicate with one another in furtherance of
the offense. “Interactive computer service”, for purposes of subsection (b)(7) and this note, has the meaning given
that term in section 230(e)(2) of the Communications Act of 1934 (47 U.S.C. § 230(f)(2)).>
<14. Application of Subsection (b)(8).--For purposes of subsection (b)(8), “masking agent” means a substance that,
when taken before, after, or in conjunction with an anabolic steroid, prevents the detection of the anabolic steroid
in an individual's body.>
<15. Application of Subsection (b)(9).--For purposes of subsection (b)(9), “athlete” means an individual who
participates in an athletic activity conducted by (A) an intercollegiate athletic association or interscholastic athletic
association; (B) a professional athletic association; or (C) an amateur athletic organization.>
<16. Application of Subsection (b)(11).--Subsection (b)(11) does not apply if the purpose of the bribery was to
obstruct or impede the investigation, prosecution, or sentencing of the defendant. Such conduct is covered by § 3C1.1
(Obstructing or Impeding the Administration of Justice) and, if applicable, § 2D1.1(b)(16)(D).>
<17. Application of Subsection (b)(12).--Subsection (b)(12) applies to a defendant who knowingly maintains a
premises (i.e., a building, room, or enclosure) for the purpose of manufacturing or distributing a controlled substance,
including storage of a controlled substance for the purpose of distribution.>

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 046 25

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

<Among the factors the court should consider in determining whether the defendant “maintained” the premises are
(A) whether the defendant held a possessory interest in (e.g., owned or rented) the premises and (B) the extent to
which the defendant controlled access to, or activities at, the premises.>
<Manufacturing or distributing a controlled substance need not be the sole purpose for which the premises was
maintained, but must be one of the defendant's primary or principal uses for the premises, rather than one of the
defendant's incidental or collateral uses for the premises. In making this determination, the court should consider how
frequently the premises was used by the defendant for manufacturing or distributing a controlled substance and how
frequently the premises was used by the defendant for lawful purposes.>
<18. Application of Subsection (b)(14).-->
<(A) Hazardous or Toxic Substances (Subsection (b)(14)(A)).--Subsection (b)(14)(A) applies if the conduct for
which the defendant is accountable under § 1B1.3 (Relevant Conduct) involved any discharge, emission, release,
transportation, treatment, storage, or disposal violation covered by the Resource Conservation and Recovery
Act, 42 U.S.C. § 6928(d); the Federal Water Pollution Control Act, 33 U.S.C. § 1319(c); the Comprehensive
Environmental Response, Compensation, and Liability Act, 42 U.S.C. § 9603(b); or 49 U.S.C. § 5124 (relating to
violations of laws and regulations enforced by the Department of Transportation with respect to the transportation
of hazardous material). In some cases, the enhancement under subsection (b)(14)(A) may not account adequately
for the seriousness of the environmental harm or other threat to public health or safety (including the health or safety
of law enforcement and cleanup personnel). In such cases, an upward departure may be warranted. Additionally,
in determining the amount of restitution under § 5E1.1 (Restitution) and in fashioning appropriate conditions of
probation and supervision under §§ 5B1.3 (Conditions of Probation) and 5D1.3 (Conditions of Supervised Release),
respectively, any costs of environmental cleanup and harm to individuals or property shall be considered by the
court in cases involving the manufacture of amphetamine or methamphetamine and should be considered by the
court in cases involving the manufacture of a controlled substance other than amphetamine or methamphetamine.
See 21 U.S.C. § 853(q) (mandatory restitution for cleanup costs relating to the manufacture of amphetamine and
methamphetamine).>
<(B) Substantial Risk of Harm Associated with the Manufacture of Amphetamine and Methamphetamine
(Subsection (b)(14)(C)-(D)).-->
<(i) Factors to Consider.--In determining, for purposes of subsection (b)(14)(C)(ii) or (D), whether the offense
created a substantial risk of harm to human life or the environment, the court shall include consideration of the
following factors:>
<(I) The quantity of any chemicals or hazardous or toxic substances found at the laboratory, and the manner in
which the chemicals or substances were stored.>
<(II) The manner in which hazardous or toxic substances were disposed, and the likelihood of release into the
environment of hazardous or toxic substances.>
<(III) The duration of the offense, and the extent of the manufacturing operation.>
<(IV) The location of the laboratory (e.g., whether the laboratory is located in a residential neighborhood or a
remote area), and the number of human lives placed at substantial risk of harm.>

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 047 26

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

<(ii) Definitions.--For purposes of subsection (b)(14)(D): “Incompetent” means an individual who is incapable of
taking care of the individual's self or property because of a mental or physical illness or disability, mental retardation,
or senility.>
<“Minor” has the meaning given that term in Application Note 1 of the Commentary to § 2A3.1 (Criminal Sexual
Abuse).>
<19. Application of Subsection (b)(15).--Subsection (b)(15) applies to offenses that involve the cultivation of
marihuana on state or federal land or while trespassing on tribal or private land. Such offenses interfere with the
ability of others to safely access and use the area and also pose or risk a range of other harms, such as harms to the
environment.>
<The enhancements in subsection (b)(14)(A) and (b)(15) may be applied cumulatively (added together), as is generally
the case when two or more specific offense characteristics each apply. See § 1B1.1 (Application Instructions),
Application Note 4(A).>
<20. Application of Subsection (b)(16).-->
<(A) Distributing to a Specified Individual or Involving Such an Individual in the Offense (Subsection (b)(16)
(B)).--If the defendant distributes a controlled substance to an individual or involves an individual in the offense,
as specified in subsection (b)(16)(B), the individual is not a “vulnerable victim” for purposes of § 3A1.1(b).>
<(B) Directly Involved in the Importation of a Controlled Substance (Subsection (b)(16)(C)).--Subsection (b)
(16)(C) applies if the defendant is accountable for the importation of a controlled substance under subsection (a)(1)
(A) of § 1B1.3 (Relevant Conduct (Factors that Determine the Guideline Range)), i.e., the defendant committed,
aided, abetted, counseled, commanded, induced, procured, or willfully caused the importation of a controlled
substance.>
<If subsection (b)(3) or (b)(5) applies, do not apply subsection (b)(16)(C).>
<(C) Pattern of Criminal Conduct Engaged in as a Livelihood (Subsection (b)(16)(E)).--For purposes of
subsection (b)(16)(E), “pattern of criminal conduct” and “engaged in as a livelihood” have the meaning given such
terms in § 4B1.3 (Criminal Livelihood).>
<21. Applicability of Subsection (b)(18).--The applicability of subsection (b)(18) shall be determined without regard
to whether the defendant was convicted of an offense that subjects the defendant to a mandatory minimum term
of imprisonment. Section 5C1.2(b), which provides a minimum offense level of level 17, is not pertinent to the
determination of whether subsection (b)(18) applies.>
<22. Application of Subsection (e)(1).-->
<(A) Definition.--For purposes of this guideline, “sexual offense” means a “sexual act” or “sexual contact” as
those terms are defined in 18 U.S.C. § 2246(2) and (3), respectively.>
<(B) Upward Departure Provision.--If the defendant committed a sexual offense against more than one
individual, an upward departure would be warranted.>
<23. Interaction with § 3B1.3.--A defendant who used special skills in the commission of the offense may be subject
to an adjustment under § 3B1.3 (Abuse of Position of Trust or Use of Special Skill). Certain professionals often occupy

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 048 27

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

essential positions in drug trafficking schemes. These professionals include doctors, pilots, boat captains, financiers,
bankers, attorneys, chemists, accountants, and others whose special skill, trade, profession, or position may be used
to significantly facilitate the commission of a drug offense. Additionally, an enhancement under § 3B1.3 ordinarily
would apply in a case in which the defendant used his or her position as a coach to influence an athlete to use an
anabolic steroid. Likewise, an adjustment under § 3B1.3 ordinarily would apply in a case in which the defendant is
convicted of a drug offense resulting from the authorization of the defendant to receive scheduled substances from
an ultimate user or long-term care facility. See 21 U.S.C. § 822(g).>
<Note, however, that if an adjustment from subsection (b)(3)(C) applies, do not apply § 3B1.3 (Abuse of Position
of Trust or Use of Special Skill).>
<24. Cases Involving Mandatory Minimum Penalties.--Where a mandatory (statutory) minimum sentence applies,
this mandatory minimum sentence may be “waived” and a lower sentence imposed (including a downward departure),
as provided in 28 U.S.C. § 994(n), by reason of a defendant's “substantial assistance in the investigation or prosecution
of another person who has committed an offense”. See § 5K1.1 (Substantial Assistance to Authorities). In addition,
18 U.S.C. § 3553(f) provides an exception to the applicability of mandatory minimum sentences in certain cases. See
§ 5C1.2 (Limitation on Applicability of Statutory Minimum Sentences in Certain Cases).>
<25. Imposition of Consecutive Sentence for 21 U.S.C. § 860a or § 865.--Sections 860a and 865 of title 21, United
States Code, require the imposition of a mandatory consecutive term of imprisonment of not more than 20 years and
15 years, respectively. In order to comply with the relevant statute, the court should determine the appropriate “total
punishment” and divide the sentence on the judgment form between the sentence attributable to the underlying drug
offense and the sentence attributable to 21 U.S.C. § 860a or § 865, specifying the number of months to be served
consecutively for the conviction under 21 U.S.C. § 860a or § 865. For example, if the applicable adjusted guideline
range is 151-188 months and the court determines a “total punishment” of 151 months is appropriate, a sentence of
130 months for the underlying offense plus 21 months for the conduct covered by 21 U.S.C. § 860a or § 865 would
achieve the “total punishment” in a manner that satisfies the statutory requirement of a consecutive sentence.>
<26. Cases Involving “Small Amount of Marihuana for No Remuneration”.--Distribution of “a small amount of
marihuana for no remuneration”, 21 U.S.C. § 841(b)(4), is treated as simple possession, to which § 2D2.1 applies.>
<27. Departure Considerations.-->
<(A) Downward Departure Based on Drug Quantity in Certain Reverse Sting Operations.--If, in a reverse
sting (an operation in which a government agent sells or negotiates to sell a controlled substance to a defendant),
the court finds that the government agent set a price for the controlled substance that was substantially below the
market value of the controlled substance, thereby leading to the defendant's purchase of a significantly greater
quantity of the controlled substance than his available resources would have allowed him to purchase except for
the artificially low price set by the government agent, a downward departure may be warranted.>
<(B) Upward Departure Based on Drug Quantity.--In an extraordinary case, an upward departure above offense
level 38 on the basis of drug quantity may be warranted. For example, an upward departure may be warranted where
the quantity is at least ten times the minimum quantity required for level 38. Similarly, in the case of a controlled
substance for which the maximum offense level is less than level 38, an upward departure may be warranted if
the drug quantity substantially exceeds the quantity for the highest offense level established for that particular
controlled substance.>
<(C) Upward Departure Based on Unusually High Purity.--Trafficking in controlled substances, compounds,
or mixtures of unusually high purity may warrant an upward departure, except in the case of PCP, amphetamine,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 049 28

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

methamphetamine, hydrocodone, or oxycodone for which the guideline itself provides for the consideration of purity
(see the footnote to the Drug Quantity Table). The purity of the controlled substance, particularly in the case of heroin,
may be relevant in the sentencing process because it is probative of the defendant's role or position in the chain of
distribution. Since controlled substances are often diluted and combined with other substances as they pass down the
chain of distribution, the fact that a defendant is in possession of unusually pure narcotics may indicate a prominent
role in the criminal enterprise and proximity to the source of the drugs. As large quantities are normally associated
with high purities, this factor is particularly relevant where smaller quantities are involved.>
<(D) Departure Based on Potency of Synthetic Cathinones.--In addition to providing converted drug weights for
specific controlled substances and groups of substances, the Drug Conversion Tables provide converted drug weights
for certain classes of controlled substances, such as synthetic cathinones. In the case of a synthetic cathinone that
is not specifically referenced in this guideline, the converted drug weight for the class should be used to determine
the appropriate offense level. However, there may be cases in which a substantially lesser or greater quantity of a
synthetic cathinone is needed to produce an effect on the central nervous system similar to the effect produced by
a typical synthetic cathinone in the class, such as methcathinone or alpha-PVP. In such a case, a departure may be
warranted. For example, an upward departure may be warranted in cases involving MDPV, a substance of which a
lesser quantity is usually needed to produce an effect on the central nervous system similar to the effect produced by
a typical synthetic cathinone. In contrast, a downward departure may be warranted in cases involving methylone, a
substance of which a greater quantity is usually needed to produce an effect on the central nervous system similar to
the effect produced by a typical synthetic cathinone.>
<(E) Departures for Certain Cases involving Synthetic Cannabinoids.-->
<(i) Departure Based on Concentration of Synthetic Cannabinoids.--Synthetic cannabinoids are manufactured
as powder or crystalline substances. The concentrated substance is then usually sprayed on or soaked into a plant
or other base material, and trafficked as part of a mixture. Nonetheless, there may be cases in which the substance
involved in the offense is a synthetic cannabinoid not combined with any other substance. In such a case, an upward
departure would be warranted.>
<There also may be cases in which the substance involved in the offense is a mixture containing a synthetic
cannabinoid diluted with an unusually high quantity of base material. In such a case, a downward departure may
be warranted.>
<(ii) Downward Departure Based on Potency of Synthetic Cannabinoids.--In the case of a synthetic
cannabinoid that is not specifically referenced in this guideline, the converted drug weight for the class should
be used to determine the appropriate offense level. However, there may be cases in which a substantially greater
quantity of a synthetic cannabinoid is needed to produce an effect on the central nervous system similar to the
effect produced by a typical synthetic cannabinoid in the class, such as JWH-018 or AM-2201. In such a case, a
downward departure may be warranted.>

<Background: Offenses under 21 U.S.C. §§ 841 and 960 receive identical punishment based upon the quantity of the
controlled substance involved, the defendant's criminal history, and whether death or serious bodily injury resulted
from the offense.>
<The base offense levels in § 2D1.1 are either provided directly by the Anti-Drug Abuse Act of 1986 or are
proportional to the levels established by statute, and apply to all unlawful trafficking. Levels 30 and 24 in the Drug
Quantity Table are the distinctions provided by the Anti-Drug Abuse Act; however, further refinement of drug
amounts is essential to provide a logical sentencing structure for drug offenses. To determine these finer distinctions,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 050 29

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

the Commission consulted numerous experts and practitioners, including authorities at the Drug Enforcement
Administration, chemists, attorneys, probation officers, and members of the Organized Crime Drug Enforcement Task
Forces, who also advocate the necessity of these distinctions. Where necessary, this scheme has been modified in
response to specific congressional directives to the Commission.>
<The base offense levels at levels 24 and 30 establish guideline ranges such that the statutory minimum falls within
the range; e.g., level 30 ranges from 97 to 121 months, where the statutory minimum term is ten years or 120 months.>
<For marihuana plants, the Commission has adopted an equivalency of 100 grams per plant, or the actual weight of
the usable marihuana, whichever is greater. The decision to treat each plant as equal to 100 grams is premised on the
fact that the average yield from a mature marihuana plant equals 100 grams of marihuana. In controlled substance
offenses, an attempt is assigned the same offense level as the object of the attempt. Consequently, the Commission
adopted the policy that each plant is to be treated as the equivalent of an attempt to produce 100 grams of marihuana,
except where the actual weight of the usable marihuana is greater.>
<Because the weights of LSD carrier media vary widely and typically far exceed the weight of the controlled substance
itself, the Commission has determined that basing offense levels on the entire weight of the LSD and carrier medium
would produce unwarranted disparity among offenses involving the same quantity of actual LSD (but different carrier
weights), as well as sentences disproportionate to those for other, more dangerous controlled substances, such as PCP.
Consequently, in cases involving LSD contained in a carrier medium, the Commission has established a weight per
dose of 0.4 milligram for purposes of determining the base offense level.>
<The dosage weight of LSD selected exceeds the Drug Enforcement Administration's standard dosage unit for LSD of
0.05 milligram (i.e., the quantity of actual LSD per dose) in order to assign some weight to the carrier medium. Because
LSD typically is marketed and consumed orally on a carrier medium, the inclusion of some weight attributable to the
carrier medium recognizes (A) that offense levels for most other controlled substances are based upon the weight of
the mixture containing the controlled substance without regard to purity, and (B) the decision in Chapman v. United
States, 500 U.S. 453 (1991) (holding that the term “mixture or substance” in 21 U.S.C. § 841(b)(1) includes the carrier
medium in which LSD is absorbed). At the same time, the weight per dose selected is less than the weight per dose
that would equate the offense level for LSD on a carrier medium with that for the same number of doses of PCP, a
controlled substance that comparative assessments indicate is more likely to induce violent acts and ancillary crime
than is LSD. (Treating LSD on a carrier medium as weighing 0.5 milligram per dose would produce offense levels
equivalent to those for PCP.) Thus, the approach decided upon by the Commission will harmonize offense levels for
LSD offenses with those for other controlled substances and avoid an undue influence of varied carrier weight on the
applicable offense level. Nonetheless, this approach does not override the applicability of “mixture or substance” for
the purpose of applying any mandatory minimum sentence (see Chapman; § 5G1.1(b)).>
<Frequently, a term of supervised release to follow imprisonment is required by statute for offenses covered by this
guideline. Guidelines for the imposition, duration, and conditions of supervised release are set forth in Chapter Five,
Part D (Supervised Release).>
<The last sentence of subsection (a)(5) implements the directive to the Commission in section 7(1) of Public Law
111-220.>
<Subsection (b)(2) implements the directive to the Commission in section 5 of Public Law 111-220.>
<Subsection (b)(3) is derived from Section 6453 of the Anti-Drug Abuse Act of 1988.>
<Subsection (b)(11) implements the directive to the Commission in section 6(1) of Public Law 111-220.>

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 051 30

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

<Subsection (b)(12) implements the directive to the Commission in section 6(2) of Public Law 111-220.>
<Subsection (b)(14)(A) implements the instruction to the Commission in section 303 of Public Law 103-237.>
<Subsections (b)(14)(C)(ii) and (D) implement, in a broader form, the instruction to the Commission in section 102
of Public Law 106-310.>
<Subsection (b)(16) implements the directive to the Commission in section 6(3) of Public Law 111-220.>
<Subsection (b)(17) implements the directive to the Commission in section 7(2) of Public Law 111-220.>
<The Drug Conversion Tables set forth in Application Note 8 were previously called the Drug Equivalency Tables. In
the original 1987 Guidelines Manual, the Drug Equivalency Tables provided four conversion factors (or ‘equivalents’)
for determining the base offense level in cases involving either a controlled substance not referenced in the Drug
Quantity Table or multiple controlled substances: heroin, cocaine, PCP, and marihuana. In 1991, the Commission
amended the Drug Equivalency Tables to provide for one substance, marihuana, as the single conversion factor in
§ 2D1.1. See USSG App. C, Amendment 396 (effective November 1, 1991). In 2018, the Commission amended §
2D1.1 to replace marihuana as the conversion factor with the new term “converted drug weight” and to change the
title of the Drug Equivalency Tables to the “Drug Conversion Tables.”>

Notes of Decisions (1376)
Federal Sentencing Guidelines, § 2D1.1, 18 U.S.C.A., FSG § 2D1.1
As amended to 10-14-20
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APP 052 31

